No.

IN THE SUPREME COURT OF THE UNITED STATES

JONAIR TYREECE MOORE,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS

Petitioner Jonair Tyreece Moote, through his attorney, David R. Stickman, who
was previously appointed under the Criminal Justice Act by the United States Court of
Appeals for the Eighth Circuit, moves this Court for an Order allowing him to proceed
in forma pauperis on this petition for writ of certiorari. Pursuant to Supreme Court Rule
39.1 and 18 U.S.C. §3006A(d)(6), Petitioner is not required to submit the affidavit
described in 28 U.S.C. §1915(a) and prescribed in Form 4 of the Federal Rules of
Appellate Procedure.

Respectfully submitted,

JONAIR TYREECE MOORE, Petitioner,

f
By
DAVID ICKMAN
Federal Public Defender
222 South 15% Street, Suite 300N
Omaha, NE 68102

(402) 221-7896

fax: (402) 221-7884

e-mail: david_stickman@fd.org

CERTIFICATE OF SERVICE

THE UNDERSIGNED hereby affirms that a true and exact copy of the foregoing
Motion for Leave to Proceed én Forma Pauperis was duly served, by regular United States
mail, postage prepaid on the 20 day of November, 2020, upon the following parties:

Jeff Wall

United States Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530

Joseph P. Kelly

United States Attorney
1620 Dodge Street

Suite 1400

Omaha, NE 68102-1506
(402) 661-3700

Matt E. Lierman

Assistant United States Attorney
1620 Dodge Street

Suite 1400

Omaha, NE 68102-1506

(402) 661-3700

Af
